!

k

t

No.) 20-5233
In The

Supreme Court of the United States
!

I

Michael R. Bums
Petitioner(s)
v.
UNITED STATES
Respondent(s)

■ft*

! Petition for a Rehearing

k

' i

Rule 44. Rehearing PRESENTED
The: exhibits challenged here undisputedly prove beyond a reasonable doubt
'DNA / Fingerprints Evidence J was irrefutably fabricated.

f-

~

'

this case a wrongful

conviction based on fabricated forensic evidence in violation of the Constitution and
fundamental due process. Specifically petitioners DNA as well as fingerprint forensic
evidence was bottom line fabricated to wrongfully convict petitioner depriving this
United States Citizen of his life, liberty, and pursuit of happiness under the bill of the
Constitution. Plainly speaking this case has the possibility of having grave implications, effecting
Thousands of other state

and federal convictions tried in the Commonwealth of

Massachusetts. The court here has 3 individual forensic technicians acting in their
individual own . capacity to fabricate forensic evidence at not one but two different
Massachusetts State laboratories...? i

;see that the gloves were substituted at the

Lakeville Laboratory between examinations for Fingerprints and DNA Samples at that
laboratory. For first Fingerprint Technician took photographs upon receipt then put those
same gloves in to Locked

Evidence Storage. A Second DNA Sample Technician

receives gloves out of Locked ft Evidence Storage and personally photographs the
gloves exhibit 126 and 127. Cle^rly^xhibitTS die gloves first photographed are cut at the
wrist,1

|For the DNA Sampre Technician here at the LakevilfeJVIa Laboratory took

.samples off the newly substituted gloves depicted in exhibited26 and 127 and sent those
samples to a completely different Laboratory for testing and analysis the Top -DNA unit
I DNA unit came up with a major DNA profile off the inside of the substituted g/ove.v
Petitioners' major DNA profile was fabricated [ off the inside of [the substituted gloves ]
cC\
11.

Cfr C-c\_se_

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[v^All parties do not appear in the caption of the case on the cover page.

A list of

all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
SUPREME COURT OF THE UNITED STATES

■Roberts. Kennddy, Thomas, Ginsburg, Breyer, Alito, Sotomayqr, Kagan,GorSUCh.

David Gerard Tobin
2, Kenneth G. Shine
3iDonald Campbell Lockhart
H'.Randall Ernest Kromm
5. Maxim Grinberg
UCynthia A. Young
RELATED CASES

For the First Circuit

United States Court of Appeals
■Chief Judge Howard, Judge Torruella, '
I
USCA1
' Judge Lynch, Judge Thompson, Judge Kayatta, Judge Barron,.

No. 12-2318

United States! District Court
I Judge! _

6 George A. OToole Jr.

!

!i:10-cr-10390-GAO

0^
SUPREME COURT OF THE UNITED STATES

2T
S}jtft

tot*
Vc^v-':i"
\P

e^"

p6

No.: 15A720

April 24, 2017.

No. 16A611.

October 2, 2017!

■No. 17-5498.

aft®

e*°e
-r.

Dec 20, 2016.

III.

eA

oi 0
... 'February 20, 2018.;

^ ceyt\oJan

Octobers ,i 2020,'

[No. 17-5498.
No:20-523l

•:4i
m

TABLE OF CONTENTS

?4:

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

reasons for grantingrehearing JDNA

And Fingerprint Fabrication

CONCLUSION

(

J

IV.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
IL3X------------

Youngblood v. Arizona 488 U.S. 51 (1988)

U A.V.CV-cwTs...HC.C,

fcH&CyKSA)

-FS-.-V7

Limone v. United State 372 F.3d, 45 (1st Cir 2004)
0-.o> V.. liiRH<XS.\Qs.Vi \. ,fe\. VTA 11 (X'VNS)

IX

Napue v. niinois 360 U.S. 264 (1954)

U,^. \i vv.:A\f v

E. tTad l.fc'b,'l.&'V

IX

v<s7 V
-JZLZZ.

Stxiclcler v. Greene 527 U.S. 150 (1998)
/•
.
\A«a*.s.\l ,
HOA O A, «>V\(VVl X)............................
Giglio v. United states 405 U.S. 150 (1972)

IWvv^&ot-)

X.C.v«UV

X7

v

AH

.\OHS..^KS..yA.^S7)

Bazley v. United Stales 473 U.S. 667 (1772)

1

ViiW-. \.w 5. M.. U.«S «. *HV *v. Vcfi. (\ .sctfe).:.............

United States v. Agurs 427 U.S. 97 (1972) .
/■
WwOjVj'^ V. UoA. ACOt. FUiA H.S4

2*jL

^

United States v. Olano 507 U.'S. 725 (1993)
- ,
^
'CvUvVS M i V-u.c. S-<jj. M.€scl .U.Ys ..'i.M..... J.............................

y
AO

7X&

Chapman v. California 386 U.S. 24 (1967)

STATUTES AND RULES

Pg IO,X

CONSTITUTION OF THE UNITED STATES! AMENDMENT 14l Equal Protection]
Section 1. [Citizens of the United States.]|
All persons born or naturalized in the United States, and subject to the jurisdiction thereof, are .
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws,
The equal protection guarantee of the Fourteenth Amendment prohibits the state from "denying] any
person within its jurisdiction the equal protection of the laws." U.S. Const, amend. XIV, § 1. With
reference to a governmental action, this language has been interpreted to mean that "all persons
similarly situated should be treated alike.

L Ed Digest: Constitutional Law § 840.3
1. The right to a fair trial, guaranteed to state criminal defendants by the Due Process Clause
of the Fourteenth Amendment, imposes on states certain duties consistent, with then-sovereign
obligation to ensure that justice shall be done in all criminal prosecutions. When a state suppresses
evidence favorable to an accused that is material to guilt or to punishment, the state violates the
defendant's right to due process, irrespective of the good faith or bad faith of the prosecution.
(Stevens, J., joined by Kennedy, Souter, Ginsburg, andBreyer, JJ.)
Although a state is obliged to prosecute with earnestness and vigor, it is as much its duty to refrain from
improper methods calculated to produce a wrongful conviction as it is to use every legitimate means to
bring about a just one. Accordingly, when the state withholds from a criminal defendant evidence that is
material to his guilt or punishment, it violates his,right to due process of law in violation of the CONSTITUTION.

'V.

!

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

\

OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the j SUPREME COURT
the petition and is
October 5, 2020
\y[ reported at__
*
j:

■i

appears at Appendix

H_to

5 or,

Mr. Michael R. Burns
Prisoner ID #93576-038
USP Lee County
P.O. Box 305
Jonesville, VA 24263
Re; Michael R. Burns
v. United States
No. 20-5233
Dear Mr. Burns:
The Court today entered the following ordex1 in the above-entitled case:
The petition for a writ of certiorari is denied.
(;

i

Sincerely,
r

Scott S. Harris, Clerk

•:

JURISDICTION

The date on which the '___
. ioxo
was
i

SUPREME COURTdecided my case
:

i

t

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
District courti 18 U.S.C- 3231;
Court of appeals! 28 U.S.C. 1291!
Supreme Court 28 U.S.C. 1257
i

!
;

r x

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED;

CONSTITUTION OF THE UNITED STATES
Equal Protection.

AMENDMENT 5

1.

Criminal actions-Provisions conceming-Due process of law and just compensation clauses.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be ■
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a. witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private’property be taken for public use, without just
compensation.
AMENDMENT 6

2.;

Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence.
AMENDMENT 14

3.;

Section 1.

[Citizens of the United States.]

All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws,
The equal protection guarantee of the Fourteenth Amendment prohibits the state from "denyjjng] any
person within its jurisdiction the equal protection of the laws." U.S. Const, amend. XIV, § 1. With
reference to a governmental action, this language has been interpreted to mean that "alTpersons
similarly situated should be treated alike.

L Ed Digest: Constitutional Law § 840.3
1. The right to a fair trial, guaranteed to state criminal defendants by the Due Process Clause
of the Fourteenth Amendment, imposes on states certain duties consistent, with their sovereign
obligation to ensure that justice shall be done in all criminal prosecutions. When a state suppresses
evidence favorable to an accused that is material to guilt or to punishment, the state violates the
defendant's right to due process, irrespective of the good faith or bad faith of the prosecution.
(Stevens, J., joined by Kennedy, Souter, Ginsburg, and Breyer, JJ.)
Although a state is obliged to prosecute with earnestness and vigor, it is as much its duty to refrain from ! •
improper methods calculated to produce a wrongful conviction as it is to use every legitimate means to
bring about a just one. Accordingly, when the state withholds from a criminal defendant evidence that is
material to his guilt or punishment, it violates his right to due process of law in violation of the CONSTITUTION;,

STATEMENT OF THE CASE

jCompare exhibits 78 v. 126 and 127 when compared the gloves'"Sre not one and the
;

’same. First received and photographed at laboratory exhibit 78. The gloves are cut right
the gloves in this photograph

at the wrist and upon examination of

;;that was taken by David R. Mackin when the alleged fingerprint analysis was conducted
!

.■

then the gloves were placed in Locked 6 Evidence Storage. A second DNA sample
technician testified on the record to specifically, the evidence was taken out of
i.

r

! Locked A Evidence Storage and the next photographs were personally taken by Jessica L.

'i

C,

i'

j Robidoux exhibits' 126 and 127 . With no reasonable doubt the gloves are not one and the
i

! same, clearly the gloves were substituted? The respective photographs were taken at the
| Lakeville, Ma Laboratory that Only conducts Fingerprint Testing, and takes Forensic DNA
samples. The DNA samples get sent to a completely different laboratory more
|
i

; specifically the top

DNA unit in Massachusetts the [ Massachusetts State

Police Forensic Technology Center ] located in Maynard, Ma. Clearly the gloves 2nd
; received out of Locked 6 Evidence Storage were substituted [?] We know this,
t

respectively this is undisputed fact the evidence indisputable. The issue is one singular
\ sample was taken off the inside and the outside of the clearly substituted gloves and sent
to the a completely different Laboratory the Top
and analysis.
j

DNA unit for testing

DNA unit came up with a major DNA profile off the

inside of the substituted slaves The evidence is irrefutable Petitioners' major DNA
i

■:j profile was fabricated [ off the inside of the substituted gloves ] . Respectively
■;i

, j
-

:

Petitioners' major DNA profile was fabricated off the [ Inside ] of substituted gloves*;

4

Case Pending

3

&

-.PACES

111

Cs
rAW

cCS

a^xS*. ojj*

&

-r

a

ft

i
si

X&

$ Michael R. Bums
!<jj #93576-038
|? USP Lee
| PO Box 305
[ JonesvUle._YA_242-63

(DNA fabrication) thtre is no explanation for Petitioners Major [ DNA
off the substituted latex gloves depicted in ( exhibit I26 & I27 and trial exhibit 107).^ Completely
cross-c ontemination

free sterilized work environment.*
' undisputed fact is the gloves clearly cut at the wrist

IIS* COURTS OF APPEALS

absolutely no comparison thcgloyes^arc cut at wrist go in to locked evidence 8 storage.
now

they are' whole coming out ft locked evidence storage

•

Cut At The Wrist

mm

' '^7jJa-QOZ7

No. 12-2318
October 21', 2019

i hi

0

H
1*. rri.-'.1 Tv,' 0~'.T.. "

pacer.uscourts.gov
■ supremecourt.gov

L-

1

&^

-V'

Cut At The Wrist

U.& District Court
6i7-7A£b«B;q

v

Seff - L.lO-cr-10390-GAQ
||Mn»Dmhpr 1.RQ14. 2019

..A"-■

a STTPBF.MK COURT

“SPrernec6urt.gov, .....

■---------------- NO.15A720

Importantly rubricated off the inside "us received" substituted gloves iu qoestiou. In i

The fact is the gloves that were originally received were snhstifutedj

Dec- 20, 201 6. Decided;

short exhort exhibit 78 is the fingerprint technicians photographs, as the reviewer can see
By the evidence of second technicians own-testimony^ of yellow residue noted oo-her
the received gloves @ 4-126,16 @ 5-16,6 @ 5-25,12 are

photographed the fingerprint technicians own testimony @ 5-16,10 of the residue being
a chemical he called Wetwop. The reviewer can clearly see that these substituted^and
not the originally received gloves^by fingerprint Tec where processed for fingerprints

cut at the wrist.

The If

t

■ proceeding DNA sample Tec's Photographs exhibit 126-127 @ 5-34,23 @ 5-35,14 @ 5-.j

No. 16A611.
April 24, 2017, Decided
• 397 LED2D 749

■ 46,4 @ -5-46,21 @ 5-73,17 The gloves are complete verse cut as the originals...7 --------

before this second technician^ picks evidence up out of lock evidence storage^ sod
personally takes the first photographs of the substituted gloves in question. For all can
see that the gloves in question beyond doubt substituted. Based on this feet the
petitioners DNA was fabricated not off the outside "os received, but most^

Consequently calling in to question any and all testimony and evidence base thereon that
was

forcnsically processed at either of the 2 Massachusetts States Police forensic

Laboratories in Lakeville or Maynard. Plainly speaking'all 3 forensic technicians

No. 17-5498.
iOctober 2, 2017, Decided
199 LED2D 171 '.

No) 17-5498/
Februaiy 20, 2018, Decided

testimony is void and unreliable\

Judge Lynch, Judge Thompson, Judge Kayatta, Judge Barron, and JudgeOTooIe

Justice’s: .of THE SUPREME COURT;

(202) 479-3039

Roberts, Kennedy,' Thomas, Ginsburq. Brever. Alito. Sotom'ayor, Kagan,G° rsuch,

£ •

A Major DNA profile pulled off the inside of substituted latex gloves., gloves were substituted and or switched at

'40,

laboratory with a completely different pair of gloves before ("DNA") sample technician was

£

second in receipt of the substituted latex gloves after technician pulled the latex gloves out of
locked ft evidence storage in Lakeville Lab. Technician Jessica L. Robidoux took samples off the
new ("DNA free") latex gloves that were substituted and sent the samples from the Lakeville, Ma
laboratory to the ("DNA unit")- in Maynard. Most disturbingly the ("DNA unit") came up with a J
major ("DNA profile") on Petitioner as to the samples that were taken off the newly substituted;
fingerprint technician David R. Maclun at Lakeville, Massachusetts
latex gloves.-,

I-

laboratory fabricated fingerpriiU evidence and laboratory documentations of fingerprint

Nnt Cut At The Wrist

analysis on the substituted 'iiter gloves which were not the gloves that were originally
received in case in chief thus giving light to false elicited testimony derived from the clearly
substituted gloves that Fingerprint Technician purportedly analyzed.
We bring the Courts attention to the disparity on the originally received gloves to
the gloves that were substituted -to which the DNA evidence was fabricated off the
substituted gloves. With no reasonable doubt exhibit 78 the originally received gloves
compared to exhibits 126 and 127 which are suppose to be one and the same are
clearly not one and the same respectively tells this Court the gloves were substituted at
the Lakeville, Ma Laboratory.
Inadvertently samples were taken off the substituted gloves and sent to the mother
laboratory for DNA testing and analysis. Respectively the most disturbing fact

clearly not one arid the
Exhibit 71 are suppose to be one and the tune as exhibit 126,1277
•glove* In exhibit 126, ;
nme. The alarming problem here it that petitioner* major DNA profile was fabricated ofTthe substituted}
note dearly marked on exhibit 126 [Fingerprint Residue). That tells reviewer the fingerprint examiner whsmt personally took the 1
' photograph exhibit 78 substituted the gloves during his purported examination. Then put the evidence b to locked 8 evidence

.

storage....

Petitioners DNA came up as a .major profile off the inside of the substituted gloves
which tells this Court Petitioners DNA was maliciously fabricated

The second examiner received and personally photographed the gloves received out of locked 8 evidence storage depicted

s

In exhibit 126,127. Then DNA Simples are taken off the substituted gloves and sent to * completely separate laboratory that by a
review of the photographs fabricated petitioners DNA to wrongfully convict In violation of the Fifth. Sixth. Eight and Fourteenth
Amendments under the Constitution of (he United Stales as a cithen.

;

■*g ■,

petitioners DNA was fabricated not off the outside "as received", but most

.1

]importantly fabricated off the inside "as received" substituted gloves in question. In
1

Exhibit 78 i *
! £

I

-:
J .

exhibit 78 is the fingerprint technicians photographs, as the reviewer can see
?

The

jthe received gloves @ 4-126,16 @ 5-16,6 @ 5-25,12 are .... cut at the wrist,

*:•

V

proceeding DNA sample Tec's Photographs exhibit 126-127 @ 5-34,23 @ 5-35,14 @ 546,4 (2J 5-46,21 @ 5-73,17 The gloves are complete verse cut as the originals...?

"<!'
J'w. *•..

•'

i

a

\

M

Sifa

1. 1

%y
¥

y

\

-

1-4
>
!

1683

/ '*<

Exhibit 73 ere rrpposs to fcscee cri lbs rente a* eih'ii:! 126.1277 '

D-

gi

:<.iL

Si

l\¥*\

,

mm

A., A
i
i

.

■

I nets cltcrly merited on exhibit 126 (Fingerprint Tleslduej. The! trill reviewer the r.nct--prlr! eeirr.'-ter v.herrs pereoerlly tori* the
| photo.-nph cxlifbf] 73 substituted the cloves during his purported cxtuninelio.n. Then put (he evfdteee In to looked g evideeao
; tteregc....

;!

The second ewnlen received rod pertonr.lly phetogfeph.td the j-iovtj reoriredrri ©fleeted 6 evidence tlorngo depleted
In exhibit 126,127. Then DNA Simples ere tricen off the ribstruted gloves cod tent Is ■ completely ceperete Irbeertery del by a
review of the photeprcjta frbtiertd petlllerterj DNA is wrongfully centrist in vioietion of the Fifth, Sixth.. Eight ere) Fcertseetb

IS

t

i]

t.'etriy rot ct re.i the
' t gloves h enMiil 125,

Xi ^

•?

ft.

mI H

'

' feme. The dcrmlng, problem here Is tbs' prlllieeerj mejor DNA profile ra fobrlteled off the cubetirj^

• Ancndmcnta under IheCorrtilution of the United Slelfi re r. ci’lf n.
T*

■gf< \ •*»■* «.'> •

~

" i
■ sj>

IjjBfi

'S

,"r

'* %

)

^5*

xrw
: eN,

1

A't

*

' <CI«OS41hh :hh>>

. . .

..

«

-Sv

m

1

I

M&M

s?

\

SMB'S

,

I

xhibitISW@pgl5

w, $&

.............................................................

M*ii. Jij-V

tA,"1

■■

<‘r .

,
*«»

. i®.

!jpj3

-,

■

•

WSmSif#

'

Ji

Ui

itJ

MM

■Bp*
.

itSSiSSi

ffl

pBtefcr
hmv

'„

"

&

•

ms

Cut At The Wrist

m

I
I-yK -_ ...^fvtMgsagflmmmm
4fti

i-tf,
;4 M$X

.

nrt

•I
MM
■Mi

%

r #•-/ ';--'CTJ'.V" AH

II

llligi&«

i

A
f

i

I

•<,

/
f

7

i

SS
ga»*

>

i

i

L .

“exterior” as received

,

*

M

Sffig38S3gg§Sfi8

£-

fSSS

i\
5

JMMHHBlaiMHNj

BSi

«

iss
«Si

f
T>,

V

f
1>:

W,
jttSpKTjj

' ^1! ■

1^4;

vl

swab fj jnj interior (as

Myv'v,
CU.W*

1

- \

!Sp

T

r|2r -l-S'32

i^ir. 4 y£ scv\ 6o lor-ed ci'lspo s<a.uie.- ^j.Fe
* t

0^\W-t^

err •i
I _.4l

.Z i-V. (
-’

/VVfJ'

# v^.ilow
i /f-cC-^vS - 6\'/^b°3 ■vLA Cvt -e<!- vj

;

... a

svv Avoirs
kov-j'}

of T€i ^*ba--

!
!

•i

!
!
i

i

n

|

!

y ;•
• !%

I JI

REASONS FOR GRANTING THE PETITION
Does this claim rely on "newly discovered evidence"?

Yes

The lower court erred summarily affirming this case a wrongful
conviction based on fabricated forensic evidence in violation of the Constitution and
fundamental due process. Specifically petitioners DNA as well as fingerprint forensic
evidence was bottom line fabricated to wrongfully convict petitioner depriving this
United States Citizen of his life, liberty, and pursuit of happiness under the bill of the.
Constitution. Plainly speaking this case has the possibility of having grave implications, effecting
Thousands -of other state

and federal convictions tried in the Commonwealth of

Massachusetts. The court here has 3 individual forensic technicians acting in their
individual own. capacity to fabricate forensic evidence at not one but two different
Massachusetts State laboratories...?

Those being the Top of the Hub main scientific

forensic laboratory that is the location of the DNA Unit in Maynard. The other being the
South Shore Headquarters of the State Police Forensic Laboratories located in Lakeville,
Where two technicians fabricated .fingerprint analysis, Laboratory documents, and where
physical forensic evidence was suppressed in violation of 'Youngblood v. Arizona 488
U.S. 51,51 109 S.Ct 33, 102 led.2d 281 (1988) holding the intentional destruction of
potentially exculpatory evidence is a due process violation. The setting creates the case
therefore it is explained that this laboratory located in Lakeville is an undersigned
laboratory to the Top of the Hub laboratory in Maynard. For Lakeville laboratory here
was the 1st to receive the physical evidence in one brown shopping bag like "evidence
bag" that contained all the evidence that was submitted to laboratory for testing and
analysis at the direction of the prosecution.
Mainly Lakeville laboratory conducts the 1st receipt, separation, and
distribution of evidence submitted. Inventory id taken and items are here identified and

placed in locked evidence storage, all at the same time separate departments that conduct
various testing are notified items are separated, identified, inventoried, and identified for
testing and analysis.

Lakeville laboratory does

; forensic fingerprint testing.

Other then fingerprints this laboratory mainly only identifies, inventories, separates,
photographs, all the evidence received with one exception, takes samples for DNA
testing. The DNA samples are only taken in Lakeville by a forensic DNA sample
technician that photographs and processes the submitted evidence. Those samples are
transported to.the mother laboratory located in Maynard. Where in this case the State
Police DNA Unit isi located. So one has fingerprint evidence, laboratory documents, and
physical evidence being suppressed and fabricated at the Lakeville Laboratory. Then
consequently based on the evidence at the 1st Lakeville laboratory exposes the "fact" that
the second Maynard .'laboratory fabricated petitioners DNA.

lower 1st Circuit affirmed

conviction on May 1st, 2015 and denied En banc on October 19th ,2015. Not even going
on the record addressing the DNA and Fingerprint fabrication and petitioners wrongful
conviction as. a United States Citizen? Not much to be said appointed counsel refused to
file on DNA and Fingerprint fabrication played dumb like "O" "I do not see the .
difference in the gloves". So the issue was not presented in counsels August 6th, 2013
direct appeal, appellate brief? Petitioner plead to Court, counsel and was ignored. Six
months later prosecution filed a Motion To Summarily Affirm on January 7th, 2014 and
Went on the record on pg 25 addressing the gloves cited; Petitioner also claims that the
differences in the apparent lengths of the gloves as shown in pictures of the gloves that
were introduced into evidence shows that that DNA war fabricated, but a review of the
pictures petitioner cites indicted that, in the picture in which the gloves appear shorter,
the wrist portion of the gloves was turned inside?

10

Know that a 30 year experienced counsel represented this petitioner
by C.J.A appointment for defense.

In Other- words appointed defense Michael C.

Andrews from Boston, Massachusetts trial -cross-examination of these 3 forensic
technicians is flawless as

it should be with 30 years experience. Completely secured the

chain of custody and above all secured the fact that the Samples that were taken in
Lakeville were taken in a cross-contamination free process. Defense even elicited from
pie technician when the gloves received were processed. @ 5-79,22 technician used
sam
-as many- precautions as, absolutely possible when turning gloves received inside out;
wearing, fresb gloves: putting gloves on new sterile paper. Elicited by defense
counsels question @ 5-79,19 and if someone turned the gloves inside out, you could
transfer DNA'from the Exterior to Interior*? At the time of testimony this 8 year sample
technician testified a half dozen, times to sterilized work .environment and to changing
her gloves during processing. @ 5-73,15 I change my gloves frequently. @ 5-79,19
wea ring fresh gloves. @ 5-73,15 I change my gloves frequently. @ 5-82,2 Change
gloves all the time? That is right. Half a dozen times testified to changing her gloves
during her sterile examination. Completely sterile cross-examination free work
environment. Sample technicians testimony @ 5-67,13 the items are deposited into
locked evidence storage. I then receive notification from the trooper who did the
. • fingerprints that any items he "may" have fingerprinted are ready for me to examine. As
in this case the fingerprint analysis was conducted before this second sample technician

picked evidence up out of locked storage. .@ 5-66,16 You examined the gloves after they
were examined for fingerprints? That is correct Now once received by this second
technician, out of locked storage photographs are taken. @5-34,17 Did you personally
take a series of photographs? DNA Sample Technician "I Did". When I begin rhy
analysis out of locked storage; ! bring it to my work station area, which has been
sterilized beforehand, and "all" the tools that I may use are also sterilized. I then
photograph the packing that the items actually come in. I take the evidence, out and I
photograph the evidence as i received it; before*I do any type of testing. @ 5-69,18
sterilized the work environment. @ 5-70,1 to prevent contamination. @ 5-73,2 That
is why you clean the table @ 5-79,24 Sterile paper. It has been clearly laid out cross­
contamination free sterile examination of the' gloves received by technician' whom
personally takes her own photographs upon receipt of evidence. As does the fingerprint
technician in this case personally took his own photographs upon receipt of the evidence
@ 4-121,10 he opened up the packages he took items from inside out, continued taking
photographs. @ 4-126,6 So these photographs are like peeling back pieces of an onion,
at each'step you took a photograph? They are responded fingerprint technician during
prosecutions cross on gloves in question. Defense @ 5-17,13 I took the photographs.
Fact both technicians took their own photographs at different times during the
technicians separate examinations, specifically on different dates, @ 5-66,20 @ 566,24 after they examined for fingerprints DNA sample technician received gloves at
this Lakeville laboratory she stresses she is extremely cautious during her' examination,
sterile work environment cross-contamination free as well as changes her gloves half
a dozen times. @ 5-86,2 that is to prevent, cross-contamination she responded.

jU
'/

M

shipped off to the laboratory? Tec Correct. @ 5-78,21 Again I ask you the same
question: If the interior - if that sample should test positive for DNA, or they locate
DIVA, we do not know if it came from the right glove or the left glove or both gloves?
Tec It would be the right, the left, a combination, we do not know. Prosecution
confirmed the samples being taken of outside of the gloves as well as inside by
. eliciting sample numbers. @ 5-50,8'And the sample number that you assigned'the
swabs from the outside of the gloves, what item number did you give that? Because the
gloves were item 1-4, a sample that is .taken from the gloves becomes 1-4.1. @ 552,17 And for the interior swabbing, what number do you give that? The original item
number, the gloves, is 1-4. The first @ 5-52,20 sample I collected from it was a J.I.]
because this was the second sample that I collected from it, it is given a [.2.], So it
. becomes item 1-4.2. Now here it has been laid out sterile cross-contamination free
process taken singular samples of the purported gloves, and chain of custody samples
are.numbered 1^4.1. for. outside "as received", and 1-4.2. for inside "as received" @
5-78,19 samples are shipped from location in Lakeville laboratory and sent to the ....
DNA UNIT that is located in Maynard. Where as- in this case the main the State Police
DNA UNIT received samples for testing and analysis. Processed by a Level 3 technician
with at the time of trial @ 5-93,22 been employed over 16 years with the State Police
DNA .UNIT. @ 5-94,2 Actually since the inception of the unit. When I first was
employed by the State Crime Laboratory, I worked in the Criminalistics units. And at the
time we did not have a DNA UNIT, but we were able to bring that on. I was a part of
the start up. of the DNA unit back in 1998. At trial this technician with 16 years
experience a bachelor of science in biology @ 5-96,24 has an Harvard extension’

school masters in natural sciences. Highly education aid a top level 3 technician more
or less the boss by education. @ 5-99,24 actually just before we get to that how many
DNA tests do you perform a

month ? @ 5-100,2 I review a lot of work as well @ 5-

batch of cases which consists of about 15 case.
100,3 currently I'm working on a

... @ 5-98,9 Laboratory

is accredited by @ 5-38,13 ASCLD/LAB American

Society Of Crime Laboratory Directors?

Interestingly enough the laboratories case file is part of the record here
and may be used because both Lakeville DNA Sample-Tec and Maynard level 3 DNA
analysis Tec here at trial both had the case file on the stand during testimony most
importantly refers to file during-testimony. Court gave consent but file was not admitted
subjected to.file. @ 5-66,11 I'do
as an exhibit during trial? It is not know if jury. was
have my case

file, DNA Tec. @ 5-99,13 May I refer to my report Defense, Does she

not remember? Looking at my report would help me remember the accurate facts level 3
Tec. Court

: Okay gave permission. At defense objection @ 5-145,7 Excuse me, is she

reading another report. Level 3 Tec, This is my DNA file. Laboratories case files
both refer to

by forensic technicians whom physically had the file on the stand while

giving testimony therefore may be refered to now on review. Now the DNA samples
are

received at the main DNA UNIT in Maynard then tested and analyzed for the trial.

,Note that there are no photographs taken at this second laboratory to secure the
chain tif custody as was methodically done in Lakeville, the trial transcript reads the
same. Samples are received tested and on to trial testimony concerning the DNA samples

IH

Defense which is in the world of DNA.probably the most important rule? It is very
important not to contaminate item with your DNA, and not to contaminate items
with other items DNA, yes it is important. Defense counsel really doing a dream team
cross-examination on the forensic technicians in this case, especially the DNA sample
technician here on specifically the gloves in question. Basely speaking air tight eliciting
from technician only One Sample was taken off the outside, and only One Sample is
taken off the Inside of both gloves together as a pair. One sample is taken from both the
i a
ouTside, and one sample is taken from both the insides together. That one sample is put m
single test tube and shipped.to be tested. @ 5-76jl9 And you took a - I think as you
explained it, you took

simple [SINGLE] - what ended up being a [SINGLE]

sample from the exterior of both gloves?.Correct So you swabbed the exterior of both
gloves and put it in to a tube right? Correct @ 5-77,17 Once the samples is processed,
and assuming that the DNA Material is .extracted from the sample that you provided, you
can not tell if DNA came from one glove, the right glove, the left glove, or both
gloves? Technician responded, there is no way to know. Because you take - you only
take one sample, you do not test the right glove and then test the left? Tec it is
X

combined together as one sample you put it all together? Tec that is correct So when
you have the DNA result saying the gloves tested positive for DNA, it can come from
one glove, left glove or born gloyes? Tec that is possible. The same procedure was
used for the [interior of the gloves]? Tec that is correct @ 5-78,8 Interior as
received? Tec Correct So yon took another swab sample, [single swab] of the
interior of both gloves? Tec Correct This single sample is put in a tube? Tec yes a
plastic tube. Plastic tube, and then you assigned its number? Tec Correct And that is

15

' taken off the gloves. As clearly laid out technician only takes a single sample off the
outside of both gloves as one, and the same for the inside of both gloves as a single
sample. @ 5-78,2 Interior as received. So you took a swab sample, [single sample] of
the interior of both gloves? @ 5-78,19 sample is shipped off to the laboratory. The
main concern here will be focused on the results of the single sample taken off the
interior of the gloves "as received". @ 5-118,2 swab from interior of both gloves did
you form an opinion? @ 5-118,4 Major profile matches that obtained from petitioner.
@ 5-137,7 you note that the DNA which is the interior "as received" @ 5-137,11
petitioner had the major profile...? Response Correct A Major DNA Profile was
-obtained off the inside of the gloves. Not a minor profile but a major profile was
obtained as to the petitioner. To lightly educate the reviewer here the DNA sample
technician personally took laboratory photographs during the processing of the physical
evidence. @ 5-35,8 defense counsel specifically objected, these are not simple
photographs; the actually have writings on the photographs. And if she testifies to what
she saw, there is more then photographs; There is partial work notes as well as
photographs. The court @ 5-37,16 admitted all her laboratory photographs. The problem
is the personal wo.rkproduct, noteiare not scientific fact that violated F.R.E 703 moving
from and through the confrontational clause. Never the less the focus here is the admitted
evidence and the DNA sample Tec personal workproduct on the laboratory
photographs she took and she wrote on during her examination. Now the personal
notes are used as evidence here. As laid out here the gloves

■processed for

fingerprints before this technician picked these gloves out' of locked evidence storage.
This DNA sample technician now writes notes on both photographs that she took

i£>:

• gloveS@ 5-38,25 has various Holes that you put on it? Correct Now the focus on one
of the 2 photographs and her notes, as cited off exhibit 126; yellow {app.fing} res.noted on
fingertips (note;swab turned yellow). This confirms that these specific gloves are the ones that
were processed separately before, for fingerprints before being placed in to evidence
.storage. For the yellow residue is from the fingerprint fuming process, that again as laid
out was conducted before the DNA sample Tec picked up these gloves. @ 5-49,7 I also
observed that there was yellow staining on the fingertips of the gloves. In this case
item are fingerprinted before. @ 5-49;10 trooper that preformed the fingerprint
analysis had used a yellow type of dye on the gloves. So that is the residue I was
noting on the tips of the gloves. To the prosecutions cross on fingerprint technician
where prosecution physically.hands the gloves in question to technician5-16,1' I’m
going to hand you some gloves. @ 5-16,6 These wotdd. be the gloves that were
submitted. @ 5-16,10 What is that color residue on the gloves? Fingerprint technician
responded I have actually used a chemical called wet wop. Experienced trial
prosecution @ 5-16,21 when you say "color" you are referring to some disclosure on
these gloves? Tec Yes. Now the prosecutor @ 5-16,24 Your Honor may I just show the
discoloration to the jury? The physical gloves that are in question as well as all the
other items tested were used outside of the evidence packages and all evidence was subjected to .DNA cross-contamination from trial used, and can not .be retested
because open air cross-contamination of use, at trial. All items at trial during crossexamination are cross-contaminated. The fingerprint technicians testimony concerning
photograph he personally took during his fingerprint analysis of the gloves he processed.
@ 5-17,25 but I recall that they were somewhat folded at the wrist?
! 17

For the Dead ringer knock out, when photographs that were taken
personally by both technicians during their separate examinations are compared of the
gloves, reviewer can clearly see that the gloves that are suppose to be one and the same
are not,
The fact is the gloves that were originally received were substituted.
By the evidence of second technicians own testimony of yellow residue noted on1 her
photograph and the fingerprint technicians own testimony @ 5-16,10 of the residue being
a chemical he called Wetwop. The reviewer can clearly see that these substituted and
not the originally received gloves by fingerprint Tec where processed for fingerprints
before this second technician picks evidence up out of lock evidence storage and
personally takes the first photographs of the substituted gloves in question. For all can
see that the gloves in question beyond doubt substituted. Based on this fact the
petitioners DNA was fabricated not on the outside

as received. , but most

importantly fabricated off the inside ”as received” substituted gloves in question. In
^- exhibit 78 is the fingerprint technicians photographs, as the reviewer can see
the received gloves @ 4-126,16 @ 5-16,6 @ 5-25,12 are . ... cut at the wrist.
1 procee

The

ding DNA sample Tec’s Photographs exhibit 126-127 @ 5-3423 @ 5-35,14 @ 5-

46,4' @ •5-46,21 @ 5-73,17 The gloves are complete verse cut as the originals...7
Consequently calling in to question any and all testimony and evidence base thereon that
was forensically processed at either of the 2 Massachusetts States Police forensic

Laboratories in Lakeville or Maynard. Plainly speaking 'aU 3 forensic technicians
testimony is void and unreliable

\\g

Petitioners conviction based on perjured testimony and falsified
evidence in violation of the Fifth, Sixth, Fourteenth • Amendments under the
Constitution and petitioners fundamental due process rights can not stand most
importantly needs to be vacated in the interest of justice to maintain the integrity in the
citizens confidence under the Constitution to Due process 'Simone v. United States,
372 F.3d 39,45- (u[i]f any concept is fundamental to our American system of justice, it
is those charged with upholding the law are prohibited from deliberately fabricating
evidence and framing individuals for crimes they did not commit"). Cited in counsels
April 7th,2014 response before judgment 'Napue v. Illinois 360 U.S. 264 (1954) 269,79
S.Ct 1173, 3 Led.2d 1217 (1959) recognizing that the Stale may not knowingly use false
evidence, including false testimony, to obtain a tainted conviction. 'Youngblood v.
Arizona 488 U.S. 51, 51 109 S.Ct 33, 102 led.2d 281(1988) holds the intentional
destruction of potentially exculpatory evidence is a Due process violation. 'Strickler v.
Greene 527 U.S. 150, 154 31 led.2d S.Ct 763 (1999) Prejudice must'have ensued.from
the suppression of the material evidence. 'Giglio v. United States 405 U.S. 150, 154'31
led.2d 104 92 S.Ct 763 (1972) the accused does not have a duty to request favorable
evidence from the prosecution, Only need to show-that the witheld evidence, 'Bagley v.
United States 473 U.S. £67.87 led.2d 481, 105 S.Ct 33 75 (1972) demonstrates that the
suppressed evidence is material [that is] its suppression undermines the confidence in
the outcome of the trial and that,' United States v. Agurs 427 U.S. 97, 107, 49 led.2d
342, 966 S.Ct 2392 (1972) There is.a reasonable likelihood the out come of the trial
would have been altered. When a defense properly preserves an "objection” to a trial
error @ 5-36,4 I have an objection - , the prosecution bears the burden of proving error

/

1r

was harmless United States v.

Olano 507 U.S. 725, 734, 113 S.Ct 1770 1.23 L.ed.2d 508

(1993) for most constitutional errors, the prosecution must show that the error was
harmless beyond a

reasonable doubt Counsel objected @ 5-36,4 And at @ 5-37,16

overruled and admitted the several photographs with DNA sample technician
personal workpi;oduct notes contained on the photographs of the gloves in dispute,
for that reason Chapman v. California
and that allows review under harmless error and
;
’'error" did not
386 U.S . 24 17 lecL2d 705 (1967) the prosecution must show that the
have a

substantial, and injurious effect or influence determining the juries verdict

; court

Therefore the

with Due respect errored

fabricated forensic
summarily nfRimincr this Citizens wrongful conviction based on
evidence that being DNA and Fingerprint fabrication with the false testimony based
thereon

. This United States Citizen states his Fifth, Sixth, Fourteenth Amendments

was violated, and respectfully request the
;

Court of the United States, to

please giant seated (affirmative relief), vacating this wrongful conviction. Michael
Russell Bums Prays

this conviction be vacated to prevent further irreparable harm to Ms

• person.

TO

to the Petitioners DNA coming off the inside of the clearly substituted gloves depicted in
exhibits 126 and 127. Beyond reasonable doubt the DNA Evidence was fabricated.

coming off the clearly substituted gloves. Please recognize that all the Forensic
evidence was Physically used during the Petitions trial. Meaning that the all the physical
evidence itself was taken out of the Laboratories envelopes and physically ^used dunng
trial and for that specific reason the physical evidence Can Not be subjected to testing
and analysis again because the evidence itself was subjected to cross contamination
during trial being physically used by Prosecution and Defense during trial. All that is
\

pointed out, is all the Forensic Evidence is compromised and can not be subjected to
further testing and analysis because it was subjected to cross-contamination

@5-79, 21
A: That is why I testified .earlier that I try to use as many precautions as absolutely
possible when, the gloves inside out wearing fresh gloves

■ @5-18,20
A: I change my gloves frequently my exam just in case, the utmost precaution as
possible

@5-82,2
Q: So you take precaution. You change gloves all the time correct???
A: that is right

For the record is fully developed by Appointed Defense Counsels Air Tight crossexamination on Technicians to the point were the chain of evidence is completely secured

on the purported gloves being received out of Locked % Evidence Storage @ TT 5-34,20

I take the evidence out of Locked & Evidence Storage. The Technician fully testifies to

changing her own

gloves before, even flipping gloves inside out during examination, ihe

samples are taken at Lakeville Lab and then sent a completely different Lab located m

Maynard, Ma for analysis. The

' DNA Lab came up with a Major DNA profile as

:U

@ 5-79,19
Q: And if the -

if someone turned the gloves inside out, you could transfer DNA

from the exterior to the interior correct?
A: .It is possible, that is why-1 testified earlier that I try to use as many precautions
as absolutely possible when turning

the gloves inside out: wearing fresh gloves.

putting it on new, sterile piece of paper but there are limits we can only do so much.

@ 5-81,19
.Q: You would not do that would you?
A: I change my gloves very frequently throughout my examination just in
case, to take the utmost pre caution as possible
Q: Right because you want your results to be accurate correct?
A: correct
Q: You want people, to rely on them right ?

@ TT 5-82
A: I would like the results to be as accurate as possible
Q: Right so you take precautions, you change gloves all the time correct ?
A: That is right I change my gloves frequently

@5-73,15
A: I change my gloves frequently

; XI. i

CONCLUSION
The petitioner a United States Citizen under the Constitution, Bill of Rights,

is

wrongfully convicted based on fabricated forensic evidence that being DNA fabrication
and fingerprint fabrication with the false testimony base thereon in the reasons set forth.
Based on the evidence this conviction has to be vacated because it opens up the floodgate
of this Citizen Constitutional rights being violated whom is entitled to equal protection
under the law from and through specifically the Constitution, Bill of Rights, [ Fourth,
Fifth, Sixth, Fourteenth Amendments], equal protection under the law, fundamental due
process, from and through Limone v. United States, Youngblood v. Arizona, Napue v.
Illinois, Strickler v. Greene, Giglio v. United States, Bagley v. United States, Agurs
v. United States, United States v. Olano, and Chapman v. California in clear violation
of this citizens Constitutional rights. Depriving this Citizen of his life, liberty, and
pursuit of happiness in violation of the Eight amendment as well, For the
Court'

just went against every listed Case above, standard, laws, treaties

of the United States and the Constitution.. Far departed from the rule 10(a) accepted and
usual course of judicial proceedings. Allows the

Court to vacate this wrongful

conviction granting the (affirmative relief) of a vacate to prevent further irreparable harm
to petitioners person. Petitioner prays for the

Court of theses United States to

grant a vacate,fiod bless and thank reviewer for your time and discretion.

XH 1

CONCLUSION

The petition j Fa?-, ^Ws^a^Os,

should be granted

Respectfully submitted,

Date:

9T (LSj/ sirn

d ^2. fr\ 1 . ^LCQ-Q
1

CERTIFICATE OF COMPLIANCE WITH WORD COUNT
CERTIFICATE OF COMPLIANCE

No. 2.0 ~b23'3>
My Client(s),
Petitioner(s)
, v.
C UJ % X c_

My Opponent(s)
Respondent(s)

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a
___contains S^QOQ words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on XUA o?

t 202sO

9\ ■ /S

\

'2_&.

/

Certificate of Faith
Pursuant To Rule 44,2

r"

Vj\>V\VV\.

^

ort -\V\

I, Michael Russell Bums,
| Do hereby Certify Under The Penalty Of Perjury
Title 28 U.S.C. § 1746, That I Have Served A True And Correct Copy Of The Foregoing
Document in good faith and not for delay '
,
A
a a

KW^v O^C.-y’C K v> X

\ VRchgv ,\> c

jgrounds shall be limited to intervening
(Circumstances of a substantial or controlling effect or to
'Other substantial grounds not previously presented.

w

C

\ecjA

5\\c.cA.x;

X

cxXoTi X
isrt>

t^ort>SsCX_c\^\

Tcrtrtrt,

o h<a\ vA ,

c

K

Cv\vi

k-v^ck\

Co.\k

C\ K y. X<a/
earths (\w

kAv, H, VcfCrt,

Certificate of Service
I, Michael Russell Bums, ..

■ / Do hereby Certify Under The Penalty Of Perjury Title 28 b.S.C. § 1746, That I

Have Served A True And Correct Copy Of The Foregoing Document To The Clerk Of Court For The Supreme Court Of The United
States. Pursuant To Houston V. Lack: 487 U.S. L.Ed.2d. 108 .Ct 2379 (1988) Is Deemed To Filed At The Time Document Was
Delivered To Prison Administration Postal Office Located In Institution For Forwarding To The Court And Service Upon Parties In
Litigation And Or Attorney's Of Record.
I, Michael Russell Bums, Has Placed The Forgoing Document In A Sealed Envelope With First-Class Postage Stamps Affixed And
Addressed To:'

Solicitor General
950 Pennsylvania Avenue, N.~W.':
Washington, DC; 20530-0001

OFFICE OF THE CLERK
SUPREME COURT OF THE UNITED STATES
WASHINGTON. D.C.20543
________________

.

Document Was Delivered To The Prison Mail Room Staff At The United States PenitentiaryLee OoLLTltyon This 4,2»«4jDay
Of-'Pec i.20a.«3

Autograph:
Michael R. Bums
#93576-038 '
USP Lee
PO Box 305
Jonesville, VA 24263-0j 05

2L7

i APPENDIX i

iSupreme^gemrt of theUnited States ^oZG'S'133
Michael R. Bums
#93576-038
USP Lee
PO Box 305
i Jonesville, VA 24263-0305

.

■xv ••

i

7.

REPRODUCING DOCUMENTS^ APPENDIX:

Material contamed in the appendix as required by Rule LO(i) must also comply in
all respects with the type siz/and page size requirements contained tfkRule 33.1./Lower
court orders and opinion/Aued on paper larger than
iy QVa inches m*
t be photoeduced. Rule 33.1(b)/ Thehe items must be reforrrfatte'd to comply witJ/Rhle 33.1 and
..
theVmust contain tne caption showing the name/)f the issuing courts agency, the title
and nulpber of the case, and the date of entry/ Rule 14.1(i). If\a signature is contained
on the origipaXreproduce the name by usjhg “s/”. The seal of/cnfeJower court and the
file stamp rafi/'be reproduced by typesetting the information yerbatimAPhoto reproductions firojn Feder^Supplement,* 1/d^ral 2nd and 3rd Remprters, and regional reporters
are notacceptable under Rule 33.1/ Such materials mqSt be reformatted to comply with
the/type size requirements of Rule 33.1. Items in
required by Rule 14.1(i)(i) through (vi).
/

appendix are to be arranged as

■%s

8.

INDING:

The petition and appendix shall be bpund nrmly in at least two placesglong tjie left
margin so as tq/qake an easily opened/rolume. ^Apart of the text may be obj
:ured by
the binding. laddfegtitching or perfect binding is preferred. Staples may b£ used, .with
at least two along the leftgnargin/covered with tape. Undbr no circumstances may s;
ral, plastic, metal, or string bindings be used. Rule 33.1(c). N. /
9. A DOCKET FEE:

The $300 docket/fee and the certificate^ service AiaU. accompany thbxpetition.
These items shouldnot be sent under separate rover./The $300 docket fee may be/paid
by personal chec^/qashier’s check, money order, orcertified check made out to “Clerk,
U. S. Supreme Court.’^Rule 38(a). Do not sejm cash,
10.

ERTIFICATE OF SERVICE:

’he certificate of service of the/petition shall be on a separate pieAof paper apart
ie certificate/^ service shall identify who was served
from the petition. Rule 29.5.
with three copies of the petitiob and list the names/addresses, and telephone numbers of
-5-

I INDEX TO APPENDICES

'EAGER
See
ORIGINAL ACTIONS

pacer.uscourts.pov
■supremecqurt.gov

COMPLAINT
OF MISCONDUCT
! Judicial Conference Committee on Judicial Conduct and Disability

APPENDIX A

lAttn: Office of the General Counsel
One Columbus Circle, NE
S2- ■s. (Washington, ID. C._ 20544
JCD PetitionforReview@ao.uscourts.gov

Administrative Office of the United .States Courts

; Re:

Office of the Circuit Executive
Complaint Nos. 01-19-90038 - 01-19-90044

APPENDIX B
Court of Appeals

12-2318

)

APPENDIX C

to®*

No. 1:10-cr-10390-GAO ,
■c.

r A\ VOvA

Vv
IK

Q~\\Q>Va

\

OV*4,\

7

• February 20,

(UNITED STATES DISTRICT COURT
i FOR THE FIRST CIRCUIT BOSTON,
I
MASSACHUSETTS

XU-

~Y c\

o

A

■^o

\

bisection 2255 Motion to Vacate, Set Aside, or Correct Sentence
q\9 ©(Rule 33.
T
’
@1DNA and Fingerprint fabrication
& RESPONSE TO GOV i DISPOSITION.

!APPENDIX D
See-Petitioners August 10th ,2015 [ Motion for En banc, with the suggestion of hearing En .banc ]

APPENDIX E

200 LED2D 305, _ US _ Burns v. United States
No. 17-5498.
February 20, 2018.

APPENDIX F

199 LED2D 171, _ US _ Burns v. United States
No! 17-5498.

4—

'xJoL-

October 2, 2017.

APPENDIX G i

197 LED2D 749,

US

Burns v. United States
^ ^ X- O

<M-2'

No. 16A611.
April 24, 2017.

APPENDIX ft
•e^

'O0

o

Michael R. Burns
' v. United States
No. 20-5233 i

Oc\ brVi.) T.O TO

C\v Vi o\ S) ok)

f\c_A vow

D

\Gk7XG
TLO'sG ,\ LO V 0

\

v-

[EME COURT OF THE UN1TED STATES
OFFICE OF THE CLERK
^/VASHj^G^N^Dr^0l43^

'N\
r\

/
//

July 2019

®TT S. HARRIS

\

AREA CODE 202
'"“'47^3011

i

.ERKJDF THE COURT

EPMiE
ETITION
ANDUM TO THOSE INTENDING TO
\
AND PAY THE
IT OF
.0ERTI
ARI IN BOOKLEWO
R A
\ /‘1 -X
T\FEE
0 D

E

\

■pare a petition for a writ
Tms memorandum is directed to those who 1xmermiA
of certiorari in/ boo^etoformat pqrsu
le/33/1 /arid pay the $300 docket fee
\.
^^reqpired bV ]
38(M.\Tt highlights the most common mistakes observed by the
\\following%hqse
a\\ a guidelines
\ / Noy
7 /may/help
l to/expedite the processing
Clerlc’sjOffi^
of your petitions, IfVg
the Clerk’s OfficeX Thi

Y

avesquestions/^hey JhouM be directed to a case analyst in
emorawdum/ls ireful al^oTdhthose preparing appeals under
\ \V\ /
Y
\ /

/ //\
/ /I \

U
r

. upfem^omy inchming amendments to those Rules that
\Rule 18. The RulesO^
2qr0, ar^^yai'lable /at\the Filing and Rules section of the
went into effect on Jul
V
\
[ ' \/ \
\
Court’s website. /
/
V ,
J
nd/p|her/ documents through the Court’s elec\Attorneys must submit petijnb
tronic\filing system. / At th
N:

y
i me, paherVe

y.

ns the official means of filing, and the

/
i

I

emends are in aoditio toyhe existingNrequirements for paper
\
ic filing sybtem^prior to submitfilings. Attorneys riiust^fegistefr thrbu ?h th electrbr
\
electronic filing req

/

r

n

/ tLs

/

x'

\

YY

y

\\

N.

\\

ting their documents; ic may take/1-2 days for an application toNbe approved, so attor°ys.
j
I M
j f
\. x
\ X
^
ney^ should apply w|ll in advance of a fl ing deadlinXXoa^ents^hould be submitted
through thi

me

uec

mA ystem /contemporaneously^wra^the

Emission of the

. 1-/ Certain Vtype^ofjilihgs—including those contatnuig
ialed material
paper \Version.
%
and those in cases that qre governed below by Fed. R. Civ. RN5|2(b)^—sftquld not be
/

st be
submittedYleotWnically. Phonal identifying information contained dn filings
redacted purspantyto/kule 34.6. More detailed information can be founckin'the Coiirt’s
\

'

i

\\

Rules, in the Guidelines for the Submission of Documents to the SupremeyCourt’s
-i-

\ o^r

COMPLAINT OF MISCONDUCT
?? e.cx.\V\A

Ocv UtVx,1C2.q*
5>l«. GV<_ cfc 1-se.wyiA C

\

A petition for review of a judicial-council decision , on a
complaint referred to a special committee may be filed by sending a brief written statement to the |
Committee on Judicial Conduct and Disability at JCD_PetitionforReview@ao.uscourts.gov or to:
^ Judicial Conference Committee on Judicial Conduct and DisabilityAttn: Office of the General
CounselAdministrative Office of the United States CourtsOne Columbus Circle, NEWashington,
D.C. 20544
The Administrative Office will send a copy of the petition for review to the complainant or
■ subject judge, as the case may be.
■

I

Michael R. Burns
#935^6-03:8,
i l
1 USPLee ;
PO Box 305
Jonesville, VA 24263-0305

G
Judicial Council of the First Circuit

COMPLAINT OF JUDICIAL MISCONDUCT OR DISABILITY
To begin the complaint process, complete this form and prepare the brief statement of facts
described in item 4 (below). The Rules for Judicial-Conduct and Judicial-Disability Proceedings,
adopted by the Judicial Conference of the United States, contain information on what to include
in a complaint (Rule 6), where to file a complaint (Rule 7), and other important matters. The Rules
are available in federal court clerks’ offices, on individual federal courts’ websites, and on
www.uscourts.gov.
Your complaint (this form and the statement of facts) should be typewritten and must be legible.
For the number of copies to.file, consult the local rules or clerk’s office of the court in which your
complaint is required to be filed. Enclose each copy of the complaint in an envelope marked
“COMPLAINT OF MISCONDUCT" or “COMPLAINT OF DISABILITY” and submit it to the
appropriate clerk of court. Do not put the name of any judge on the envelope.
l.

Name of Complainant:

VVvtV.cA ^

Contact Address:

US,'? \

Co,

cf f

A\<L

T

tiTyf,

\/ IK lip

Daytime telephone:

2.

Name(s) of Judge(s): Cw,S
ScMUJsOVi.

*

Courier-A 0 1 t.S. LQu,a.~
'"5>
3.

-------------------------

-*3. 0 O.S, frx<^cc

Does this complaint concern the behavior of the judge(s) in a particular lawsuit or
lawsuits? ✓
( Vj Yes
If “yes," give the following information about each lawsuit:
Court:

U.V. C

Case Number:

vy- 'xrtAft-.

.ftv v cvv

etA s.

CSk-.

Docket number of any appeal to the l vt Circuit: ^

£llVJk

Co

Are (were) you a party or lawyer in the lawsuit?

WS'VSfc.
tK vtftXc-X Cfet.tsx. \*AfN-<L.f AOVxQ-^KO ,

[ VfParty

C,mA

'DwX'St.^.^TitCve.S C\V\7.<-Vi

Page 1 of2

s./.t

V. V\- C-M-\Q~SU.-^.KCi.

If you are (were) a party and have (had) a lawyer, give the lawyer's name, address, and
telephone number: C.iv>rv-r
.kvs’s.c L. *\o Ivrsp g.t C_n{j
V>.C-ovmr\Vn____ '
. S\;\\
<k/v___________
^
jj kc<s >\tse.?sC‘ic\ \r^Vuu.5* SjUs.'-. j OlH V«Xe*,c\

£>kS

c

O fctju" rtCk

k v^w

own tv*

V\v crx.\\o I ^

V\K oTUft

^V7-<Vi\-OOTX
4.

Brief Statement of Facts. Attach a brief statement of the specific facts on which the
claim ofjudicial misconduct or disability is based. Include what happened, when and
where it happened, and any information that would help an investigator check the facts. If
the complaint alleges judicial disability, also include any additional facts that form the
basis of that allegation.

5.

Declaration and signature:
I declare under penalty of perjury that the statements made in this complaint are true and
correct to the best of my knowledge.

(Signature)

a j^-isvU\

(Date) Oct

^ XO\C^

L\“Vxw^S COMPLAINT FILED WITH THIRTEEN LISTED PARTIES
1. UNITED STATES ATTORNEY GENERAL "
.et a!;
_■
2. EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS el at;
et al;
3. DISTRICT OF MASSACHUSETTS U.S. ATTORNEY1
4. MASSACHUSETTS ATTORNEY GENERAL
et al;
5. GOVERNOR OF MASSACHUSETTS ■
et al; ’’
6. MASSACHUSETTS BAR COUNSEL et at;
7. MASSACHUSETTS BAR ASSOCIATION etal;
8. COURT OF APPEALS 1st CIRCUIT ct a);
^kvi c\ ^
U.S. V. MICHAEL R. BURNS NO 12-2318
9. OFFICE OF PROFESSIONAL RESPONSIBILITY
UNITED STATES DEPARTMENT OF JUSTICE el al;
10. OFFICE OF INSPECTOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE el al;
11. NEW HAMPSHIRE SUPREME COURT
ATTORNEY DISCIPLINE OFFICE BOARD OVERSEERS et a!;
12. U.S. ATTY MAXIM GRINBERG
13. U.S. ATTY DAVID G. TOBIN
14. U.S. ATTY KENNETH G. SHINE
15. U.S. ATTY DINA MICHAEL CHAITOWITZ
16. U.S. ATTY RANDAL ERNEST KROMM
TEL: 603496-5927
17. C.J.A Appointed Counsel JULIE KIELTY CONNOLLY

CERTIFIED MAlF

T

----- ^AKL^ie-^ ...\\uaaV'
CoH^W\V»\
Page 2 of2
AVx/eCsnS

A. O. AA\CV
_______________

(o

r OMPT AIN'T POCKETED
i

parties listed served by tracked certified mail

1.
UNITED STATES ATTORNEY GENERAL
CONSTITUTION AVE. AND TENTH STREET N.W.
HSHO c\HCVX

WASHINGTON, DC 20530
USPS# 7013-3020-0002-1458-4073

^\0.\ Sjrs\-V "id

C\^Q HH^O

USPS# 7013-3020-0002-1458-3656

2

pprFiVF.n 4 times. TWICE FROM INSPECTOR fiF.NHRALS QFEISE
executive office for united states ATTORNEYS
UNITED STAES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE N.W.,ROOM2245
WASHINGTON, DC 2053-0001
USPS# 7013-3020-0002-1458-4066
3649
USPS#

'ASS** HAoo. H'lMfe 2>\^\

^

3.

DISTRICT OF MASSACHUSETTS
U.S. ATTORNEY

^Hoa. HO.Hi

CARMEN M. ORTIZ
ONE COURTHOUSE WAY

&'MH Oi

BOSTON, MA 02210
TEL:617-748-3100
USPS #7013-3020-0002-1458-4059
3632

4.

MASSACHUSETTS ATTORNEY GENERAL
MAURA HEALEY
ONE ASHBURTON PLACE
BOSTON, MA 02108
TEL-.617-727-2200
USPS: 7013-3020-0002-1458-4042
3625

H<Aa hhoo. HiHi 2>vi\

whhy

<\%<\& HHCXH-lHi

fcTiWSJ
Cfv \VVj

5.
GOVERNOR OF MASSACHUSETTS
OFFICE OF THE GOVERNOR
360 STATE HOUSE
BOSTON, MA 02133

4440 c0Acyi.

'JaU XI V\ ~l*\

USPS# 7013-3020-0002-1458-4035
3618

6.
MASSACHUSETTS BAR COUNSEL
OFFICE OF THE BAR COUNSEL
99 HIGH STREET

H1M.& &ViA gfi

BOSTON, MA 02110
TEL-.617-782 8750

HC,

FAX: 617-728 8750
USPS: 7013-3020-0002-1458-3984
3601

7.

MASSACHUSETTS BAR ASSOCIATION
COMMITTEE OF PROFESSIONAL ETHICS
BOSTON, MA 02111-1204

44^0

2.VZA &“5\Hk S"S

USPS #7013-3020-0002-1458-1461
3595
8.

COURT OF APPEALS 1st CIRCUIT
U.S. V. MICHAEL R. BURNS NO 12*2318
ONE COURTHOUSE WAY
BOSTON, MA 02210
TEL:617-748-9057
USPS 7013-3020-0002-1458-1508
3588

^

%\1l\ -&XVH QO

4<£C
9.
OFFICE OF PROFESSIONAL RESPONSIBILITY
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE NW, ROOM 3266
WASHINGTON, DC 20530-0001

hlhs

jm #l\% 07

USPS# 7013-3020-0002-1458-1478

‘A SO

wuml

<^va\

10.
OFFICE OF INSPECTOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
INVEST ION DIVISION
1.

■1

1425 NEW YORK AVENUE NW, SUITE 7100

•

0, ^0 'HAcn.

2a oj,

WASHINGTON, DC 20530

USPS #7013-3020-0002-1458-1485
3564

'JgSUfk APPELLATE COUNSEL-SISH*riS!&
REVIEW FOR MISCONDUCT
NEW HAMPSHIRE SUPREME COURT
ATTORNEY DISCIPLINE OFFICE BOARD OVERSEERS
11.

4 CHENELL DRIVE, SUITE 102
CONCORD, NEW HAMPSHIRE 03301
TEL: 603-224-5328

CVS^O <*Mo^ HA.HS n\y\

FAX: 603-228-9511

^

USPS# 7013-3020-0002-1458-1492
3670

-

12.
EDITOR-N-CH1EF
the

BOSTON GLOBE

POBOX 55819
BOSTON, MA 02205
USPS# 7013-3020-0002-1458-355

Coo

'XOW

\cOO»*-k

/

Electronic Filing System, and in other guidance available at the Electronic Filing S<
tion of the Court’s website.
\

1.

PAGE AND TYPE SIZE:

Thkpetition and the appendix required by Rule 14 must be presented 0/paper that
is GVs by 9V^inches and not less than 60 pounds in weight as statedm Rule/33.1(a) and (c).
^he color ofthe cover must be white. Rule 33.1(g)(i). The petition shall be typeset in
a

/

\

tury family (e.g., Century Expanded, New Century Schoolbook/or Century School\
\
/
/
book) 12^point type with 2-point or more leading between lines,
ootnotes must be 10/
point with 2-] int ok more leading between lines. Any type that does not measure on a
typesize finder to
12-point for the body and 10-point for footnotes will not be accepted.
Attached are sample cbpies of correct and incorrect type. /
/

Petitions produced onXpersonal computer using word processing, electronic publish/
ing, or image setting are considered typeset and are acceptable. Petitions produced on a
/
typewriter are not acceptable.
otations exceedi 50 words shall be indented. The
text of the petition and the appendix.thereto must appear on both sides of the page.
Rule 33.1(b).
\

2.

/

COVER and COVER PAGE IN

A

TION:

The fi'ont and back covers of the petition shhfi consist of 65-pound weight white
paper. Rule 33.1(e). Items on the/eov^r of the petit! shall be in the order set forth in
Rule 34.1(a) through (f). The ca^tiomof the case must list tl^e petitioner(s) in this Court on
the topside of the versus with your/real opponent(s) oh the bottom side. You should not
copy the caption of the case as/ it/appeared in the lower\ ourt unless it accurately identifies who the petitioners) aricl w 0 the respondent(s) are in mis Court. Counsel of record
/
shall be a member of the^Bai/of this Court at the time the petition is presented for filing.
/

Rule 34.1(f). Names of other attorneys who are members of the liars of theseveral states
may be listed on the cover, but names of non-lawyers such as research assistants, law
/

/

\

\

students, and advisops may not appear on the cover under any circumstances; nor are
they to be credited^mth having contributed to the preparation of the petifoqn either ir^the
text, in a footnote, or at the conclusion of the petition. If you are representing yourself,
your name^oddress, and telephone number shall appear on the cover. If the names of
-2-

United States Court of Appeals
For the First Circuit
e, e.
No. 12-2318

V

See'.Oc*'l\,0.0\c\
)

^e.cA\
I v\e.^cx€-voCvA
o

3

UNITED STATES,
Appellee,
v.
MICHAEL R. BURNS,
Defendant, Appellant.
Before
Howard, Chief Judge,
Lynch and Thompson, Circuit Judges.
ORDER OF COURT
Entered: March 20, 2019

The renewed motion to recall mandate is denied. The request that this court reconsider its
Order dated October 12, 2018, is denied. The motion for appointment of counsel is denied.

By the Court:
Maria R. Hamilton, Clerk

7017 EtEO 0001 0141 Slfib
cc:

Cynthia A. Young
G? David Gerard Tobin
Kenneth G. Shine
ef'
Randall Ernest Kromm
9;
Maxim Grinberg

7017 EbEO -0001 0141 55bl

OvV\<t-

Burns v. United States

200 LED2D 305, _ US

No. 17-5498.
Michael R. Burns, Petitioner
vs.

United States.

[200 L Ed 2d 305] 2018 US LEXIS 937.
February 20, 2018.

Petition for rehearing denied.<*pg. 306>
Former decision, 138 S. Ct. 268, 199 L. Ed. 2d 171, 2017 U.S. LEXIS 4977.

2LED2D

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

5<2-

the parties are too lengthy to be fully included on the cover of the petition, a short/caption
may be used. \ The complete listing of the parties to the proceeding in this Cou^t shall be
placed on the page following Questions Presented for Review. Rule 14.1(M/ No text of
the petition is to appear on the inside of the front or back covers. Do noUfet the October
Term of the CourtXon the cover of the petition. A sample cover that may be/followed as
to form only is attached to this memo.
3.

//

QUESTIONS PRESENTED:

The first page of the petition, not the back of Jme front cover, must contain
Questions Presented for Review. Rule 14.1(a). T^e caption of the petition is not
to be repeated on this page. Tlie question(s) may be^refaced by a very brief introductory
statement to set the scene, so that the questiop^d may be understood. The question(s)
should be short and concise and nky not b
imentative or repetitious. If the peti­
tioner or respondent is under a death sentence that may be affected by the disposition
of the petition, the notation “CAPITA CASE” shall precede the words “Questions
Presented.” No other information is ho
included on this page. Rule 14.1(a).
4.

/

/

PARTIES TO PROCEEDINGS AND RELATED CASES:

The next page shall list the parties to the\proceeding in this Court if all their
names do not appear on the cover/ Rule 14.1(b)(i)\ This list must be precise. Should
a corporate entity be a petmoher, the Rule 29.6 corporate disclosure statement is to
appear on this page. If th/re ls no parent or publicly held company owning 10% or more
of the corporation’s stock,ya statement to that effect snail be included on this page.
Rules 14.1(b)(ii) and 29.6./
\
A list of all proceedings in other courts that are directly related to the case in this
Court should ahfo appear on this page. Rule 14.1(b)(iii). Bela is an example of the
format that should Joe used for this list:

• Sfrni v. Jones, No. 18-cv-200, U. S. District Court for the Western District of
Pennsylvania. Judgment entered Oct. 1, 2018.
•

\

Smith v. Jones, No. 18-1200, U. S. Court of Appeals for the Third iircuit. JudgH
ment entered Apr. 15, 2019.
-3-

Case l:10-cr-10390-GAO Document 146 Filed 02/25/19 Page 1 of 1

YcAo«.

7U<W

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

Michael R. Burns
PETITIONER
CASE NO. 1:10-CR—10390-GAO

vs.
USA
RESPONDENT

ORDER
George A. OToole Jr., D.J.

upon the office of the United States Attorney.

a2SSaSSsSS£S3Sa£

victims as defined by 18 USC §3771.

|

7Q17 SEED DQD1 Dill 5455

/s/ - George A. OToole Jr.
Dated: February 25, 2019

<a

U.S. DISTRICT COURT JUDGE

CONCLUSION
The petitioner a United States Citizen under the Constitution, Bill of Rights,

is

wrongfully convicted based on fabricated forensic evidence that being DNA fabrication
and fingerprint fabrication with the false testimony base thereon in the reasons set forth.
Based on the evidence this conviction has to be vacated because it opens up the floodgate
of this Citizen Constitutional rights being violated whom is entitled to equal protection
under the law from and through specifically the Constitution, Bill of Rights, [ Fourth,
Fifth, Sixth, Fourteenth Amendments], equal protection under the law, fundamental due
process, from and through Limone v. United States, Youngblood v. Arizona, Napue v.
Illinois, Strickler v. Greene, Giglio v. United States, Bagley v. United States, Agurs
v. United States, United States v. Olano, and Chapman v. California in clear violation
of this citizens Constitutional rights. Depriving this Citizen of his life, liberty, and
pursuit of happiness in violation of the Eight amendment as well. For the
Court -

just went against every listed case above, standard, laws, treaties

of the United States and the Constitution.. Far departed from the rule 10(a) accepted and
usual course of judicial proceedings. Allows the.

Court to vacate this wrongful

conviction granting the (affirmative relief) of a vacate to prevent further irreparable harm
to petitioners person. Petitioner prays for the

Court of theses United States to

grant a vacate,Eod bless and thank reviewer for your time and discretion.

il 7?----

zJ? X
Pages

Sv
V-

e-A 3L.2L ^ S

Ryc\9a>^ VT^a ^ ^O \°\
9 D"N A/Fingerprint Fabrication

X- Ife ,7H -78 , 7*

&\S

i

# Misapplication of Public Safety Exception

\<& ~3H./ \©l

- \07

!

1>S “ 7\

Jury Evidencd Record System

;

- *&

7X ~m

£
£

|!

*t

Of)
C3

^

h .'

us -w

’

Ineffective Assistance Of Counsel

Q

£
3

O)

=
3
Uu

Jl

.2

0

C
<D
CX

■§ < !
cc n>

>>$
►4

I

Prosecutorial Misconduct

X5

9
i
Abuse Of Discretion

tn

j. ;

X 22
c —

nj
"O
XJ

~iGX -G'iM
GSS -7$X

i

d Juror jMisconduct By Juror

7** -7H4

CD +->

;

V, 5
o S
o
o .2

a

DNA/Fingefrjrint Fabrication

74-78 7US

© t|.
I ^Supplemental Parttif Thd:iRecord For Review Forensic Evidence Fabrication
p .s
$ 5 ® Public Safety Section In Entirety

\*-V\ tiO\ - IG7 ;

<D X3

i

Aji
& .

Identification Section In Entirety Issuses 1- tlirougli - 11

4H~\00/ °VS7

-VOQO

.2

*

I® Statement Of The Facts In.Case Derived Frdm Tlie Court Record

108 V “USG

* Supplemental Testimony Relevant Information Record Fact's

\\yi -\x&4

i

TM
\JKa

e
o

Evidence Fabrication # 1

Evidence Fabrication U 2
* Evidence Fabrication #3
® DNA! Fabrication #4
* DNA Fabrication #5
0

Fabrication # 6
^Fabrication Of Inventory Sheet #7

75\
7U
764
774
78X
74X
810

-75S
'767
'77ft
~7ft0
-740
-808
-8tt

7.

REPRODUCING DOCUMENTS IN APPENDIX:

Material contained in the appendix as required by Rule 14.1(i) must also comply irr
all respects with the type size and page size requirements contained in Rule 33.1. LoWer
court orders and opinions issued on paper larger than 6Vs by 9Vi inches may not be photoreduced. Rule 33.1(b). These items must be reformatted to comply with Rule/33.1 and
they must contain the caption showing the name of the issuing court or agendy, the title
and number of the case, and the date of entry. Rule 14.1(i). If a signature is contained
on the original, reproduce the name by using “s/”. The seal of the lower court and the
file stamp may be reproduced by typesetting the information verbatim/ Photo reproduc­
tions from Federal Supplement, Federal 2nd and 3rd Reporters, arid regional reporters •
are not acceptable under Rule 33.1. Such materials must be reformatted to comply with
the type size requirements of Rule 33. ly Items in the appendix are to be arranged as
required by Rule 14.1(i)(i) through (vi). \
/
8.

BINDING:

The petition and appendix shall be bound

ly in at least two places along the left

margin so as to make an easily opened volume.
o part of the text may be obscured by
the binding. Saddle stitching or perfect bindip^ is preferred. Staples may be used, with
at least two along the left margin, covered xvith tap* Under no circumstances may spiral, plastic, metal, or string bindings be Used. Rule 33.1(c).
9.

DOCKET FEE:

The $300 docket fee and^ the certificate of service shall accompany the petition.
These items should not be/sent under separate cover. The $300 docket fee may be paid
by persoial check, cashier’s check, money order, or certified check made out to “Clerk,
U. S. Supreme Coupt?’ Rule 38(a). Do not send cash.
10.

\

CERTIFICATE OF SERVICE:

The certificate of service of the petition shall be on a separate piece of paper apart
from the petition. Rule 29.5. The certificate of service shall identify whqjvas served
with three copies of the petition and list the names, addresses, and telephone numbers of
-5-

2,
Submitted Appendix With En banc
(2) Color Coded Index For Ease In Navigation of En Banc and Cert

IW\a ^

Or

®©(D®@©®®®®
(3) Covers of the 64 Issues Raised In Color with Color KeyAnD
(4) Notarized"! Affidavit of Fact ] in support of En banc & Certiorari

2300 pages raising 64 issues broken down to a 100 pages 1
(5) 100 page En banc Petition
Filed 8/10/2015
. t
Completely edited for the U.S. Supreme Court
(6) 2300 page En banc Petition Raising 64 issues fallowed by I.R. A.C

>

(7) Supplemental Exhibit Appendix
Attention Warning
(8) Jury Evidence Recording System Exhibits Used at Trial
Apologize petitioner is indigent and original Color copy of
exhibits were submitted to lower court with En banc. Petition requested specific
Jers Exhibits in color from lower court and was directed to have Supreme court
Look it up? To really comprehend the reviewer must seek a color copy of Jers
Exhibits to replace this submitted copy in black and white
Submitted Appendix With En banc
(9) Appellate Court Record Appendix Transcripts and Ordere
o .a

■

(10) Complaint Of Misconduct Appendix
(11) Laboratory Photographs
(12) Exhibit Appendix for Forensic Fart of the Record 1-16

§

<D "D
c/>

(13) Exhibit Appendix Forensic Fabrication Issues 1 through 7

I—

g s
CL Cl,'

(14) Exhibit Appendix - Misconduct Issue No. 11 Brady Violation
(15) Resumes of Forensic Technicians
>

(17) Statues and Rules for Petition of Writ of Certiorari
Appellate / Supreme Court Record in Order
(18) Record of the Court After Lower Court Judgment
Immediate Release Filed With U.S. Supreme Court DNA and Fingerprint
Fabrication To Wrongful Conviction Petitioner a Citizen of the United States
(19) Pleading for Immediate Release filed with U.S. Supreme Court
!
j
Filed 5 T i
by Certified Mall
. and by Offices On other Offices
Complaint Filed With Lower Court, Executive Office Boston and Washington Judicial Conference Committee On Judicial Conduct and Disability
No action taken DNA Fabrication by 13 listed Offices ofCourt Officers ?

(20) Complaint Of Misconduct Exhibit Appendix
(21) Full Scale Blueprint Diagram Depicting Petitioners 64 Issues Laid Out With
Color Key At Top Of Page [ IN COLOR], Only supplied to reviewer to target each issue should 1 be picked for Writ

About the Non Cumulative Exhibit Appendix
Present With Petition of Certiorari
Reviewer Please understand that this Appendix may seem document heavy at first sight to respective reviewer yet do not
be alarmed the Presented 300 page Petition Writ of Certiorari is technically only 113 pages at length, Most importantly only Refers to
one Appendix that being Appendix 1 Includes 20 exhibits.
The next enclosed 14 exhibit appendixes Consist of the exhibit appendixes that were submitted with En banc petition they
are clear fact specific in relation to the Hand written 9/2/2014, 1200 page Supplemental Appellate Brief that was submitted pre
Enbanc. The entire 1200 pages raising 64 issues was completely edited specifically for En banc review to the lower court Complete
with a Computer Hyper Link 11 page table of contents that allows reviewer the convenience when using the Hyper Link Download
CD to search the table of contents by specific issue. When reviewer has selected issue of concern, reviewer may double click on the
table of contents and that will bring the reviewer to the specific issue at hand. After typing and completely editing the 1200 page hand
written supplemental brief the page count of the supplemental went to 2300 pages on en banc, with again a complete hyper link click
table of contents for reviewer. The Identification and Misapplication of Quarles Public Safety Exception in complete entirety was
Including at the end of this submission should the reviewer have selected either one issue for review En banc.
2300 pages material broken down to a 100 page En banc included in the presented Appendix 5 of En bane Petition
submitted 8/10/2015 Raising the Jets System / DNA and Fingerprint Fabrication to wrongfully convict / Bad Identification with 5
different claims of prosecution eliciting false and perjured testimony derive fiom only 1 teller / and the clear misapplication of
Quarles.
Appendix (19) Petitioners Pleading for Immediate Release located in Appendix 19 that was filed by Clerk June 10“*, 2016.
Covering 7. Issues of Laboratory Forensic Fabrication and suppression of Youngblood physical forensic evidence. The pleading is only
(28) pages wilh a 500 page 19 subsection Appendix methodically referenced to the trial transcripts including the 7 fabrication claims
surrounding the substituted gloves and suppression of Youngblood material. This puts everything aside raising only the fabrication of
forensic evidence and suppression thereof, again presented with this denied Application.
Filed With Supreme Court on June 10““ 2016, as well as Submitted with The Denied Application on December 20““ 2016

Appendix (20) Table Of Contents and Exhibit Appendix For Complaint Of Misconduct
Complaint Filed With 13 Listed Offices of Officers of this Court
All Parties Are Listed Within This Documents Appendix
See Petit^p0^ritofCertlorori^^ ^ Mjscont{UC( Appendix For received responses taking No Action to Investigate----- —
jg. Forwarded by Clerk to the office of :First Circuit Executive Office see

APPENDDC (18) Record of the Court After Judgment
Exhibit R
2 of 2 Exhibits
Correspondences From the Office of the First Circuit Executive dated
• August ll* ,2015
• September Id1*1,2015
_________________________ —
------------ xfniinn fhn H"nmnlftint nf Disability was filed twice at this point in time docketed on Appellate Docket at;-------------------02/23/2015
~
These responses were only foreed^Sta service of a Notice that an Affidavit Of Fact was fiied in AppcIlatc Court Bnd
specifically directing ( panties / addressees et al ] that fact No 69 cited verbatim .: All parties involved failed to take any action^ to
ethically address this wrongful conviction
---as well as cited
.
For in the interest of all parties are to response to rebute fact oudined in Affidavit Of Fact by forwarding response to the claimant and
mos t importantly forward Notarized response to Clerk of Appellate Court for docketing
This is included because not only was all addressees Severed individually here with notice for opportunity to respond1 tonottakfog «ny
Circuit
No Action Taken To Investigate Complaint ofMtscondua_________:_______ .—
----0 Now Filed with Washington Judicial Conference Committee On Judicial Conduct & Disability

counsel indicating the name of the party or parties each counsel represents. Rule 29.5.
If the proof of service is signed by a member of the Bar of this Court, notarization is no;
needed. If it is ^executed by one who is not a member of the Bar of this Court,/the
signature shall be either notarized or be accompanied by a declaration in complianj with
28 U.S.C. §1746. ,ule 29.5(c). The certificate of service is not to be included in the
bound petition.
11.

CERTIFICATE OF COMPLIANCE:

The petition for a writvof certiorari must be accompanied by'a certificate signed by
the attorney, the unrepresented party, or the preparer of th/document stating that the
petition complies with the word limitation. The persm/preparing the certificate may
rely on the word count of the word-processing systematised to prepare the petition. The
word-processing system must be set to include footnotes in the word count. The certifi­
cate must state the number of wordkin the petition. The certificate shall accompany the
petition when it is presented to the Clerk for filing and shall be separate from it. If the
certificate is signed by a person other tlWa member of the Bar of this Court, the counsel
of record, or the unrepresented party,Jx mpst contain a notarized affidavit or declaration
in compliance with 28 U. S. C. § 17- I. A sample certificate of compliance that may be
followed as to form is attached ttythis memo.
12.

TIME FOR FILING:

You have ninety calendar days, not three months, from the date of entry of judgment,
order or opinion, or the/iate a timely filed petition for rehearing is denied, or a subsequent
judgment based onJme grant of the petition for rehearing, within which to file with the
Clerk a petition ftfr a writ of certiorari. Rules 13.1 and 18L3. The time to file does not
begin tb run When the mandate, remittitur, rescript, or similar document issues or is filed
in the lWdr court. Rule 13.3. In order for the petition to be timely filed, it shall either
be received by the Clerk of the Court within those ninety days or be sent to the Clerk
by first-class United States Postal Service, including express and priority mail, postage
prepaid, and bearing a postmark, other than a commercial postage meter label, showing
that the document was mailed on or before the last day for filing; or if itNis delivered on
or before the last day for filing to a third-party commercial carrier for delivery to the
Clerk within 3 calendar days.
-6-

Michael R. Burns. Petitioner v. United States.
SUPREME COURT OF THE UNITED STATES
138 S. Ct. 1045; 200 L. Ed. 2d 305; 2018 U.S. LEXIS 937; 86 U.S.L.W. 3412

No. 17-5498.
February 20, 2018, Decided
Editorial Information: Prior History
Burns v. United States, 138 S. Ct. 268, 199 L. Ed. 2d 171,2017 U.S. LEXIS 4977 (U.S., Oct. 2, 2017)
Judges: {2018 U.S. LEXIS 1}Roberts, Kennedy, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan
Gorsuch.
Opinion

Petition for rehearing denied.

SCTHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

93576038

CORRECT TYPE
by\ allowing defenses based on school misconduct in
situations in which the school’s involvement in the
lending relationship was not unusually extensive. /
For the same reason, petitioner errs in contending
(Pet. '18—19) that the decision of the court of appeals
conflicts with this Court’s cases allowing state law
to impose liability greater than the liability/imposed
by fede:
law. Such cases, including English v.
General lectric Co., 496 U. S. 72 (1990Y, and California v. \RC America Corp., 490 U./S. 93 (1989),
address situations in which there is/no conflict be­
tween the State’s imposition of greater liability and
federal law. Here, as in Hines, /there is a conflict,
because the federal scheme did' not simply permit
state-law school\based defences in specified cir­
cumstances but limited state-law school-based de­
fenses to those circumstances.5
3. There is no conflict among the courts of appeals
on the question presented by petitioner, as petitioner
herself admits. Pet. 2T\ 24. Petitioner nonetheless
urges this Court to m?ant review on the basis of “diver­
gent decisions emerging from the lower courts.” Pet
21. In fact, the/lower couiiss have uniformly found
state laws comparable to the one at issue here to be
preempted. This Court’s review is not warranted
based on petitioner’s assertion that those courts apply
different rationales in reaching their uniform results.
5 Petitioner’s reliance (Pet. 20-21) on United^ 'tates v. Kimbell
Foods,Anc., 440 U. S. 715 (1979), Wallis v. Pan American PetroleunyCorp., 384 U. S. 63 (1966), and United Sbxfes v. Yazell,
38^U. S. 341 (1966), is also misplaced. Those icisions conCl
the issue whether a court should rely on state law or
fashion a federal common law rule when the court must fill in
the interstices of a federal program. They do not concern the
question presented here—under what circumstances federal law
preempts conflicting state law.
\

-7-

Michael R. Burns. Petitioner v. United States.
SUPREME COURT OF THE UNITED STATES
138 S. Ct. 268; 199 L. Ed. 2d 171; 2017 U.S. LEXIS 4977; 86 U.S.L.W. 3156
No. 17-5498.
October 2, 2017, Decided
Editorial Information: Subsequent History
US Supreme Court rehearing denied by Burns v. United States, 2018 U.S. LEXIS 937 (U.S., Feb. 20,
2018)
Judges: {2017 U.S. LEXIS 1}Roberts, Kennedy, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan,
Gorsuch.
Opinion

Petition for writ of certiorari to the United States Court of Appeals for the First Circuit denied.

SCTHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

93576038

1
L

SAMPLE CERTIFICATE OF COMPLIANCE WITH WORD COUNT
CERTIFICATE OF COMPLIANCE
No. 07-

My Client(s),
Petitioner(s)
v.
My Opponent(s)
Respondent(s)

As required by Supreme Cottf\ Rule 33.1(h), I certify that the petition
for a writ of certiorari contains
words, excluding the parts of the
petition that are exempted/by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

20__

—10 —

Michael R. Burns. Applicant v. United States.
SUPREME COURT OF THE UNITED STATES
137 S. Ct. 1835; 197 L. Ed. 2d 749; 2017 U.S. LEXIS 2731; 85 U.S.L.W. 3506
No. 16A611.
April 24, 2017, Decided
Judges: {2017 U.S. LEXIS 1}Roberts, Kennedy, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan,
Gorsuch.
Opinion

The application to file a petition for a writ of certiorari in excess of the page limitation addressed to
Justice Thomas and referred to the Court is denied. {137 S. Ct. 1836} Justice Gorsuch took no part
in the consideration or decision of this application.

o.

SCTHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

93576038

'•i-

XII. Statement of the Case
Provide a concise statement of the case containing the facts material to the consider­
ation of the question(s) presented; you should summarize the relevant facts of the case
and the proceedings that took place in the lower courts. You may need to attach
additional pages, but the statement should be concise and limited to the relevant facts
of the case.
XIII.

Reasons for Granting the Petition

The purpose of this section of the petition is to explain to the Court why it should
grant certiorari. It is important to read Rule 10 and address what compelling reasons
exist for the exercise of the Court’s discretionary jurisdiction. Try to show not only
why the decision of the lower court may be erroneous, but the national importance of
having the Supreme Court decide the question involved. It is important to show
whether the decision of the court that decided your case is in conflict with the decisions
of another appellate court; the importance of the case not only to you but to others
similarly situated; and the ways the decision of the lower court in your case was errone­
ous. You will need to attach additional pages, but the reasons should be as concise as
possible, consistent with the purpose of this section of the petition.
XIV. Conclusion
Enter your name and the date that you submit the petition.
XV.

Proof of Service

You must serve a copy of your petition on counsel for respondent(s) as required by
Rule 29. If you serve the petition by first-class mail or by third-party commercial
carrier, you may use the enclosed proof of service form. If the United States or any
department, office, agency, officer, or employee thereof is a party, you must serve the
Solicitor General of the United States, Room 5614, Department of Justice, 950 Pennsyl­
vania Ave., N.W., Washington, D. C. 20530-0001. The lower courts that ruled on your
case are not parties and need not be served with a copy of the petition. The proof of
service may be in the form of a declaration pursuant to 28 U. S. C. § 1746.

>5

1li
i
Michael R. Burns. Petitioner v. United States.
SUPREME COURT OF THE UNITED STATES
208 L. Ed. 2d 121; 2020 U.S. LEXIS 3996
No. 20-5233.
October 5, 2020, Decided

!

Ji
g

li
I
!l

Judges: {2020 U.S. LEXIS 1}Roberts, Thomas, Breyer, Alito, Sotomayor, Kagan, Gorsuch, Kavanaugh.

il

Opinion

R

1

Petition for writ of certiorari to the United States Court of Appeals for the First Circuit denied.

il

I
0

!i

i!r.
SiI;
S!

I
I
S!
i’

IT
1!
j.i
ii

l:i

a

o

I!
i;
is

f

SH

ii

SCTHOT

1

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

?:
i
i.

93576038 |;

I

